No. 19-247
In the

Supreme Court of the United States
CITY OF BOISE,
Petitioner,
v.
ROBERT MARTIN, LAWRENCE LEE SMITH,
ROBERT ANDERSON, JANET F. BELL, PAMELA S.
HAWKES, AND BASIL E. HUMPHREY,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

BRIEF FOR AMICI CURIAE MARYROSE
COURTNEY AND KETCHUM-DOWNTOWN
YMCA IN SUPPORT OF PETITION FOR A
WRIT OF CERTIORARI
F. A ndrew Hessick
160 Ridge Road
Chapel Hill, NC 27599
(919) 962-4332
ahessick@email.unc.edu

Richard A. Simpson
Counsel of Record
Wiley Rein LLP
1776 K Street, N.W.
Washington, D.C. 20006
(202) 719-7000
rsimpson@wileyrein.com

Counsel for Amici
291290

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICI  . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

This Court should grant review because
the Ninth Circuit’s decision significantly
and unjustifiably undermines the ability
of local governments to address problems
associated with public encampments . . . . . . . . . . 6
A. Homelessness is an epidemic across
the country, adversely impacting
both the homeless and thei r
surrounding communities . . . . . . . . . . . . . . . 6
B. My exper ience w ith my brother
confirms the human toll of homelessness
and the complexity of the problem . . . . . . . 13
C. The Ninth Circuit’s decision, although
well-intentioned, not only departs from
established law but also will harm the
very people it is intended to help . . . . . . . . 14

ii
Table of Contents
Page
D. The Ninth Circuit’s decision has other
adverse consequences  . . . . . . . . . . . . . . . . . 22
E. My personal experience w ith my
brother demonstrates that prohibiting
enforcement of anti-encampment laws
can lead to homeless people facing
more serious criminal charges . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Berman v. Parker,
348 U.S. 26 (1954) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Kelo v. City of New London,
545 U.S. 469 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Martin v. City of Boise,
902 F.3d 1031 (9th Cir. 2018) . . . . . . . . . . . . . . . . . . . 19
Statutes and Other Authorities
Cal. Penal Code § 290(c)  . . . . . . . . . . . . . . . . . . . . . . . . . 25
Cal. Penal Code § 314 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Cal. Penal Code § 372 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
L.A. Mun. Code § 11.00(m) . . . . . . . . . . . . . . . . . . . . . . . 25
http://w w w.adcogov.org /sites/default /f iles/
Adams%20Homelessness%20Assessment.pdf  . . . . . 9
http://www.washingtonpost.com/wp-dyn/content/
article/2010/07/09/AR2010070902357.html . . . . . . . . .6
https://laist.com/2019/06/03/a_bridge_home_year_
one.php . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iv
Cited Authorities
Page
https://nationalhomeless.org/category/mortality/  . . . . . 9
ht t p s: //ny p o st .com / 2 019/0 9/0 9/ it s - on ly- a matter-of-time-before-homeless-leprosyoutbreak-nyu-doc/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
https://thehill.com/opinion/healthcare/460442is-a-dark-ages-disease-the-new-americanplague-threat . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
https://washingtonpost.com/local/cold-callousletter-critical-of-dc-homeless-encampmentssti rs- cont roversy/ 2 019/0 8 / 2 8 / bd9 0bf 2cc91b-11e9-a058-7c0b3f4b623a_story.html . . . . . . 10-11
https://www.cdc.gov/nchs/products/databriefs/
db328.htm . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
h t t p s : // w w w. d a i l y n e w s . c o m / 2 017/ 0 5 / 1 5 /
business-owners-struggle-with-homelesscrime-along-orange-line-in-van-nuys/ . . . . . . . . 11, 12
h t t p s : // w w w. d a i l y n e w s . c o m / 2 017/ 0 6 / 2 4 /
ive-had-to-become-tough-how-homelesswomen-survive-the-dangers-of-skid-row/ . . . . . . . . 10
ht t p s : // w w w. d a i l y n e w s . c o m / 2 01 8 / 0 6 / 0 8 /
homeless-woman-raped-by-t wo -men- oncanoga-park-sidewalk-lapd-says/  . . . . . . . . . . . . . . . 10

v
Cited Authorities
Page
https://w w w.forbes.com/sites/niallmccarthy/
2018/12 /20/the-u-s-cities-w ith-the-mosthomeless-people-in-2018-infographic/  . . . . . . . . . . . . 8
h t t p s : // w w w. f o x n e w s . c o m / u s / h o m e l e s s e n c a mp m e nt s - i n c r e a s i n g l y- a f fe c t i n g california-train-traffic  . . . . . . . . . . . . . . . . . . . . . . . . 12
https://www.huduser.gov/portal/sites/default/
files/pdf/Understanding-Encampments.pdf  . . . . . . 12
https://www.lacity.org/blog/lahsas-winter-shelterprogram-reopens-for-those-experiencinghomelessness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
https://w w w.lahsa.org /documents?id=34372019-greater-los-angeles-homeless-countpresentation.pdf  . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
https://www.lamayor.org/mayor-garcetti-la-citycouncil-declare-shelter-crisis-mayor-signspackage-ordinances-address-la%E2%80%99s . . . . 21
https://w w w.latimes.com/ local/california/ lame-ln-homeless-point-in-time- count- qahousing-20190604-story.html  . . . . . . . . . . . . . . . . . . . 8
ht t p s : // w w w. l a t i m e s . c o m /o p i n i o n /o p - e d /
la-oe-randall-plague-climate-change-rats20190516-story.html . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

vi
Cited Authorities
Page
https://www.latimes.com/opinion/op-ed/la-oeshortt-homeless-victims-20181015-story.html . . . .  6-7
https://www.nbclosangeles.com/investigations/
Firefighters-Lose-Critical-Tool-to-BattleRise-in-Homeless-Fires-513057481.html . . . . . . . . . 11
https://w w w.nbclosangeles.com /news/ local /
LA-Officials-Gear-for-Changes-to-ProvideResou rces -for - Sk id-Row-Resident s 475978593.html  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
https://w w w.nbclosangeles.com /news/ local /
Map-2018 -Homeless-Encampment-FiresLos-Angeles-513201591.html . . . . . . . . . . . . . . . . . . . 11
https://www.ncbi.nlm.nih.gov/pubmed/24672998 . . . . . . 7
https://www.nytimes.com/2019/05/22/opinion/
california-housing-nimby.html  . . . . . . . . . . . . . . . . . 21
https://w w w.scientificamerican.com /article/
medieva l- diseases-f la re -as-unsanita r yliving-conditions-proliferate/ . . . . . . . . . . . . . . . . . . . 11
ht t p s : // w w w. t h e a t l a n t i c . c o m / h e a l t h /
archive/2019/03/typhus-tuberculosis-medievaldiseases-spreading-homeless/584380/ . . . . . . . . . . . . 9

vii
Cited Authorities
Page
h t t p s : / / w w w. u s a t o d a y. c o m / s t o r y / n e w s /
nation/2019/06/18/homeless-homelessnessdisease-outbreaks-hepatitis-public-health/
1437242001/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
https: // w w w.usnews.com /news / hea lth iest com mu n it ies /a r t icles / 2 019 - 0 4 -2 3 /
homeless-dying-in-record-numbers-on-thestreets-of-los-angeles . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Jessie Speer, “It’s Not Like Your Home”:
Homeless Encampments, Housing Projects,
and the Str uggle over Domestic Space,
49 antipode (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Tony Sparks, Citizens Without Proper ty:
Infor mality and Political Agency in a
Seattle, Washington Homeless Encampment,
49 Environment and Planning (2017) . . . . . . . . . . . . 9

1
INTEREST OF AMICI1
MARYROSE COURTNEY: My brother has been
experiencing homelessness as a result of mental illness
and substance abuse on and off for the past twenty years.
Our system for providing good access to mental health
care and housing is badly broken. I know the problems
all too well from my efforts to help my brother.
For the last several years, I have been working with
policy makers and professionals who are bringing hope
to the challenging work of addressing this intractable
problem. They are making significant strides.
I am deeply concerned that the Ninth Circuit’s
decision in this case will seriously set back these efforts.
The decision is well intentioned, but it will harm the very
people it is intended to help by prescribing an unworkable
standard for local governments to follow. It is already
apparent that local governments face the prospect of
defending litigation alleging that their actions violate
the Ninth Circuit’s decision in this case if they pursue
creative policies intended to address the societal problems
associated with homelessness. Those problems affect
both homeless people themselves and their surrounding
communities. In response to the risk of litigation, local
1. No counsel for a party authored this brief in whole or
in part, and no such counsel or any party made a monetary
contribution intended to fund the preparation or submission of
this brief. No person other than amici curiae made any monetary
contribution to its preparation or submission. Amici curiae gave
notice of their intent to file this brief to all parties in accordance
with Rule 37.2. A blanket consent to the filing of amicus curiae
briefs has been filed and docketed.

2
governments abandon their efforts, even if they are
confident they could prevail on the merits after a long,
expensive fight. The result, as I have already seen
first-hand with my brother, is the deployment of more
aggressive policing tactics against people experiencing
homelessness, which raises long-term barriers to their
ability to obtain stable housing and leaves them in a cycle
of periodic incarceration.
KETCHUM-DOWNTOWN YMCA: For 137 years,
people have joined the Y in Downtown Los Angeles to find
positive relationships and support for their goals in youth
development, healthy living, and social responsibility. The
Ketchum-Downtown YMCA’s community reflects the
economic diversity of Downtown Los Angeles. A homeless
mother seeking respite from the streets in parent-child
swim lessons, a CEO recovering from surgery, and a
teen needing a mentor to pursue a dream of college and
career all come to the Y. Communities form where people
gather, and the most vulnerable in our society, such as
the homeless, need the best kind of community support.
Members support members, and no one cares about income
levels during a cycling class. At the Y, members, including
the homeless, participate in programs that strengthen
spirit, mind, and body; prevent chronic disease; reduce
the impact of some mental illnesses; and give people hope
for the future.
This brief tells the story of MaryRose Courtney’s
first-hand experiences with her homeless brother, John,
and is written in significant part in her voice. That story
reinforces Ketchum-Downtown YMCA’s conviction
that local jurisdictions need flexibility to adopt creative
approaches when addressing the devastating impact of

3
homelessness and encampments. The decision of the Ninth
Circuit in this case, although undoubtedly well-intentioned,
will undermine the efforts of Ketchum-Downtown YMCA
and other well-intentioned organizations to help make
downtown Los Angeles a great place to live and to raise
a family.
SUMMARY OF ARGUMENT
Homelessness is an epidemic across the country,
adversely affecting both the homeless and their
surrounding communities. Many homeless people live in
encampments for understandable reasons.
But homeless encampments have created a public
health nightmare, both for those living in the encampments
and others in the area. Diseases associated with the
Middle Ages, and long since largely eradicated in the
developed world, are returning in these encampments.
Sexual assault and other violent crimes are rampant.
Encampments also severely damage the communities
in which they are located. Drug use, prostitution,
burglaries, theft, and arson are commonplace. Public
safety suffers as encampments interfere with the ability
of firefighters to do their job. Encampments disrupt daily
life for local citizens, including by impeding both public
transportation and roadways. And poor communities
suffer the most because that is where most encampments
are located.
My experience with my brother, John, demonstrates
the human toll of homelessness and the complexity of
the problem. John suffers from mental disease that

4
complicates efforts to help him, and his public urination
and masturbation has resulted in his being convicted of
felonies and classified as a sex offender. John is not alone
in these experiences. Homeless people routinely suffer
basic human indignities from living on the street.
The Ninth Circuit decision in this case cannot be
reconciled with the precedents of this Court and conflicts
with decisions from other courts. It is also having an
immediate and severely adverse impact on the very people
it is intended to help.
Under the Ninth Circuit decision, a government
cannot enforce its laws prohibiting public camping unless
it provides on each night sufficient eligible beds in shelters
for every homeless person in the “jurisdiction.” That
standard is hopelessly vague, and it imposes enormous
costs on local government.
Ambiguities in the Ninth Circuit decision abound.
What is the relevant jurisdiction? May a large jurisdiction
like Los Angeles City or County address particular
neighborhoods as distinct units? How is the number of
homeless people determined day by day? Do beds in
shelters with any sort of religious affiliation count? Do beds
in shelters that impose rules regarding sobriety, hours,
or behavior count? The Ninth Circuit’s failure to answer
these and other critical questions leave governments with
intolerable uncertainty about their obligations.
The Ninth Circuit’s ruling has many other severely
adverse consequences. The inability to enforce antiencampment laws means existing encampments will
persist and more encampments will appear. Those

5
encampments bring with them the disease, crime, and
safety risks mentioned above, both for the people living
in them and for others in the neighborhood. Downtown
Los Angeles could be a wonderful place to live and raise a
family. But no family wants to live in a place where parents
must push strollers around encampments, young children
learn to step over drug paraphernalia, and human waste
threatens basic health and safety.
Moreover, the Ninth Circuit’s ruling is already leading
to more aggressive policing, as police prohibited from
enforcing anti-camping laws turn to arresting homeless
people for more serious offenses, like public urination,
public defecation, and public nudity. As John’s experience
shows, convictions on these more serious charges can
lead to homeless people being classified as sex offenders.
Homeless persons with felony records or who are
registered sex offenders will find it considerably more
difficult to obtain stable employment or find landlords
that are willing to rent to them.
The bottom line is that governments need flexibility
to promote housing and safety for a variety of vulnerable
people who suffer from a variety of conditions. Some
homeless people simply cannot afford housing, but others
have mental health and substance abuse problems.
Court rulings like the Ninth Circuit’s in this case do far
more harm than good because they lead to deregulation
and generate apathy and inaction, as well as a sense of
frustration that discourages further efforts to help the
homeless.

6
ARGUMENT
I.

This Court should grant review because the Ninth
Circuit’s decision significantly and unjustifiably
undermines the ability of local governments
to address problems associated with public
encampments.
A.

Homelessness is an epidemic across the
country, adversely impacting both the homeless
and their surrounding communities.

1. Amici know Los Angeles County best and focus
in significant part on the problems of that community.
Homelessness, however, is an epidemic across the United
States with tragic consequences for people experiencing
homelessness and with serious adverse impact on the
surrounding communities. Over one hundred thousand
people are living on the streets on any given day.
http://w w w.washing tonpost.com /w p - dy n /content /
article/2010/07/09/AR2010070902357.html. Each person
has a unique story about the path to, and current struggles
with, homelessness. Taken together, though, those stories
show that the homeless are particularly vulnerable to a
constellation of dangers and harms.
Homeless people are regularly victims of violent
crimes. Accounts of unconscionable violence against
the homeless abound. Typical are the stories occurring
in September 2018 of someone beating to death with a
bat two men sleeping on the sidewalks of Los Angeles,
of someone burning with acid a homeless couple in the
San Fernando Valley, and of someone in Denver gunning
three homeless people to death. https://www.latimes.com/

7
opinion/op-ed/la-oe-shortt-homeless-victims-20181015story.html. These are but a tiny sample of documented
accounts of violence—with countless more undoubtedly
suffered in silence.
Statistics show that the homeless are disproportionately
affected by violence. For example, a recent survey in Los
Angeles revealed that half of homeless women experienced
physical or sexual abuse in the last year. Id. The CDC, by
contrast, reports that women in general experience sexual
or physical violence at about half that rate. https://www.
ncbi.nlm.nih.gov/pubmed/24672998.
Homelessness has also resulted in a public health
crisis, with myriad contagious diseases devastating
homeless communities in large cities across the country.
https://www.usatoday.com/story/news/nation/2019/06/18/
homeless-homelessness-disease-outbreaks-hepatitispublic-health/1437242001/. Without access to clean
water, bathrooms, and other basic necessities, homeless
people are uniquely susceptible to contagion. Id. Lack
of sanitation and close proximity of individuals living
in homeless encampments create a perfect storm for
transmission of fecal-oral diseases like hepatitis A.
The risk is not simply a higher rate of otherwise
prevalent diseases. Diseases harkening from the Middle
Ages that were all but extinguished in the United States
are now rampaging through homeless communities:
typhus, tuberculosis, and possibly bubonic plague. Id.;
https://www.latimes.com/opinion/op-ed/la-oe-randallplague-climate-change-rats-20190516-story.html. These
diseases are rare in developed countries, but they thrive
in homeless encampments because of abundant rats,

8
fleas, and other pests that can carry them. Conditions
the homeless face, especially in Los Angeles County,
raise the specter of other deadly diseases, like leprosy,
which also have historically resulted in ostracism of the
destitute. https://thehill.com/opinion/healthcare/460442is-a-dark-ages-disease-the-new-american-plague-threat;
https://nypost.com/2019/09/09/its-only-a-matter-of-timebefore-homeless-leprosy-outbreak-nyu-doc/. The risks of
these diseases create unimaginable hardships for people
living on the street.
2. Homelessness in the United States is concentrated
in urban areas, with nearly half of homeless people
living in large cities. https://w w w.forbes.com/sites/
niallmccarthy/2018/12/20/the-u-s-cities-with-the-mosthomeless-people-in-2018-infographic/. In 2018, the City of
Los Angeles had the second-highest number of homeless
people of any major city. Id. As of 2019, Los Angeles City
has more than 36,000 homeless people, representing a
sixteen percent increase over the number in 2018. https://
www.latimes.com/local/california/la-me-ln-homelesspoint-in-time-count-qa-housing-20190604-story.html. Los
Angeles County has even more—nearly 59,000 homeless
people, representing a twelve percent increase over 2018
numbers. Id.
The homeless in Los Angeles face heightened
risk of succumbing to disease, being victims of violent
and sexual assault, and turning to substance abuse.
https://www.usnews.com/news/healthiest-communities/
articles/2019-04-23/homeless-dying-in-record-numberson-the-streets-of-los-angeles. Every day, three homeless
people die on Los Angeles County streets. Id. In Los
Angeles County, the average life expectancy of homeless

9
people is about fifty years, https://nationalhomeless.org/
category/mortality/ compared to about eighty years for
others, https://www.cdc.gov/nchs/products/databriefs/
db328.htm. The adversities of life on the streets leave the
homeless in Los Angeles essentially with only half-lives.
The encampments in Los Angeles (and no doubt in other
cities as well) exacerbate these problems. Encampments
form for a number of reasons. For some, reliance on and
accountability to a group, create a sense of community that
makes encampments attractive. Tony Sparks, Citizens
Without Property: Informality and Political Agency
in a Seattle, Washington Homeless Encampment, 49
Environment and Planning 86, 92 (2017). Other homeless
people seek to live in encampments because they believe
they are less dangerous than shelters, which they attest
are often overcrowded and filled with “unstable people.”
http://www.adcogov.org/sites/default/files/Adams%20
Homelessness%20Assessment.pdf. Still others choose to
live in encampments for easy access to services, such as
meals at nearby shelters, canals for drinking and bathing,
or other public infrastructure. Jessie Speer, “It’s Not Like
Your Home”: Homeless Encampments, Housing Projects,
and the Struggle over Domestic Space, 49 antipode 517,
523 (2017).
But encampments amplify the problems that
homeless people already face. Living conditions in
encampments create fertile breeding grounds for deadly
infection: pervasive fecal matter in the same area where
people eat and sleep, combined with close proximity,
have led to outbreaks of typhus, hepatitis A, and other
communicable diseases. https://www.theatlantic.com/
health/archive/2019/03/typhus-tuberculosis-medievaldiseases-spreading-homeless/584380/.

10
Crime has also become a routine part of life in
encampments. My brother is frequently beaten up and
bears scars from his life on the streets. A homeless
woman in Los Angeles was raped right in the open near
an encampment. https://www.dailynews.com/2018/06/08/
homeless-woman-raped-by-two-men-on-canoga-parksidewalk-lapd-says/.
Crime is common because of the prevalence of
uniquely vulnerable individuals among the homeless. In a
recent survey, nearly seventy percent of homeless women
reported being survivors of child abuse. https://www.
dailynews.com/2017/06/24/ive-had-to-become-tough-howhomeless-women-survive-the-dangers-of-skid-row/. More
generally, forty percent of homeless women surveyed
reported experiencing physical or sexual abuse. Id.
Crime also proliferates because of difficulties
in detection and an unwillingness to report crimes
resulting from a fear of retaliation, ostracism, and other
consequences. Gang members and other perpetrators of
violent crimes hide in plain sight in the encampments,
frustrating law enforcement efforts. https://w w w.
nbclosangeles.com /news/ local / LA- Off icials- Gearfor-Changes-to-Provide-Resources-for-Skid-RowResidents-475978593.html.
Other cities have experienced similar increases in
violence and disease in encampments. In the District of
Columbia, for example, areas surrounding encampments
have seen more crimes, especially violent crimes, and
exhibit many of the same concerning disease-carrying
qualities, such as extensive fecal waste in living and
sleeping spaces. https://washingtonpost.com/local/cold-

11
callous-letter-critical-of-dc-homeless-encampmentsstirs-controversy/2019/08/28/bd90bf2c-c91b-11e9-a0587c0b3f4b623a_story.html.
3. Encampments pose risks to people living in the
communities surrounding them. As a result of the
unsanitary conditions in encampments, surrounding
communities are regularly exposed to a variety of highly
contagious diseases. In Los Angeles, for example, both
typhus and hepatitis A have infected non-homeless
individuals living near encampments. https://w w w.
scientificamerican.com/article/medieval-diseases-flareas-unsanitary-living-conditions-proliferate/. Local
residents near encampments have experienced more
crime, including drug use, prostitution, burglaries, theft,
and even arson. https://www.dailynews.com/2017/05/15/
business-owners-struggle-with-homeless-crime-alongorange-line-in-van-nuys/.
Encampments create other significant safety hazards,
such as fire risks. Firefighters in Los Angeles County
extinguish nearly seven fires every day in homeless
encampments. https://www.nbclosangeles.com/news/
local/Map-2018-Homeless-Encampment-Fires-LosAngeles-513201591.html. Daily activities by people in
encampments create significant fire risks, such as unlawful
redirection of power lines into camps without proper
equipment and despite the presence of highly flammable
objects. https://www.nbclosangeles.com/investigations/
Firefighters-Lose-Critical-Tool-to-Battle-Rise-inHomeless-Fires-513057481.html. Compounding this issue,
encampments use fire hydrants as water sources, which
prevents hydrant use during firefighting—in addition to
the more obvious issue of encampments creating physical
barriers to hydrant access. Id.

12
Encampments also disrupt daily life for Los Angeles
residents. Homeless encampments near railroad tracks,
for example, impede public transportation. https://www.
foxnews.com/us/homeless-encampments-increasinglyaffecting-california-train-traffic. Likewise, encampments
on sidewalks make it difficult to move around freely
within Los Angeles. For example, the Los Angeles Police
Department and the Department of Transportation were
forced to shut down sidewalks and prohibit pedestrian
traffic near encampments because of increased crime.
https://www.dailynews.com/2017/05/15/business-ownersstruggle-with-homeless-crime-along-orange-line-invan-nuys/. Many people understandably avoid areas
with encampments because of the extensive reporting of
harassment and illicit activities.
Poor communities disproportionately bear the burden
of the inability to deal with the increasing number of
encampments after the Ninth Circuit’s ruling, simply
because most of the encampments are located in poor
communities. In Fresno, for example, encampments
are more typically cleared out in affluent downtown
areas when compared to less well-off industrial areas.
https://www.huduser.gov/portal/sites/default/files/pdf/
Understanding-Encampments.pdf.
Encampments further exacerbate all these societal
challenges by re-entrenching homelessness. Many
homeless people faced with the opportunity to move
out of an encampment will choose to stay, for a variety
of reasons including mental illness, access to illicit
substances, and fear of losing the community of the
encampment or of facing the unfamiliar challenges of
living outside encampments. Encampments thus result
in fewer homeless people escaping from homelessness.

13
B. My experience with my brother confirms the
human toll of homelessness and the complexity
of the problem.
My experience with my brother, John, demonstrates
the human toll of homelessness and the complexity of
the problem. Last December, John was in jail again for
offences related to homelessness. My niece found him on
an inmate search. He was doing alright, and my sister
got him into a shelter upon release. He disappeared for
the Holidays, and my sister did not find him again until
January. He had some medical issues related to being on
the street for long periods of time, like intractable lice and
skin rashes. We were checking on him every day. After a
few days, however, he walked away from another shelter
and began to stay in a nearby encampment.
About two weeks later, my sister found him sitting on
a wall near her local coffee shop. It was about ten miles
from the shelter at which he had been staying. He said
that he didn’t feel safe and needed to move. She dressed
him in clean, warm clothes, he had dinner with our family,
and we bought him a hotel room. But he disappeared to
stay in a different encampment.
A few weeks later, we received a call from my nephew
who is a firefighter and paramedic. He was onsite at a
call and my brother was there, covered in feces. A kind
passerby had called the paramedics. John did not want
medical care, and those present did not believe that he
met any criteria for diminished capacity that would allow
them to force him to the hospital. He was covered in
feces, refused help, refused housing, and limped back to
his encampment. A few hours later he was arrested for
urinating in public.

14
John has told me that he is covered in feces because
he isn’t feeling well, or because he doesn’t have access to
bathrooms. He has also told me that he will sometimes
defecate or urinate in his pants to avoid being arrested
again. After learning at a Town Hall in May that repeated
arrests for public urination can result in a person being
classified as a sex offender, we urgently researched John’s
status. He in fact had been classified as a sex offender due
to repeated arrests for public urination and one arrest for
masturbation.
John is not alone in these experiences. Other homeless
people suffer the basic human indignity of having to
defecate or urinate in their pants. And many others are
repeatedly charged with crimes or required to register
as sex offenders, which makes it difficult for them to find
housing or hold steady employment and leaves them with
no obvious options for improving their lives.
C.

The Ninth Circuit’s decision, although wellintentioned, not only departs from established
law but also will harm the very people it is
intended to help.

The Ninth Circuit no doubt intended its decision to
help homeless people by declaring that local governments
may not enforce laws against public camping unless
the jurisdiction provides sufficient beds in shelters to
accommodate all homeless people. Amici applaud the
Ninth Circuit’s good intentions, and share its desire to
see housing available for all homeless people. But good
intentions are not enough.

15
The Ninth Circuit’s decision cannot be reconciled
with this Court’s precedent and conflicts with decisions
of other courts, as the Petition for a Writ of Certiorari
demonstrates. But the Ninth Circuit decision is not merely
wrong. It is having an immediate and substantial adverse
impact on the very people it was intended to help and to
their communities.
Governments need flexibility and creativity to create
housing and safety for a variety of vulnerable people who
suffer from a variety of conditions. Some homeless people
simply cannot afford housing, but others have mental
health and substance abuse problems. Court rulings like
that of the Ninth Circuit in this case do far more harm
than good because they lead to deregulation and generate
a sense of frustration that discourages further efforts
to help the homeless. Review by this Court is critical
to eliminate the substantial harm being caused by the
decision.
1. Governments have a strong interest in preventing
the harms associated with public encampments. See Kelo
v. City of New London, 545 U.S. 469, 480 (2005). This
Court has consistently upheld the power of governments
to adopt policies to combat blight and the ills associated
with it. See, e.g., id.; Berman v. Parker, 348 U.S. 26 (1954)
(upholding redevelopment plan targeting a blighted area
of Washington, D.C.). Los Angeles’s restriction on public
camping and its other policies aimed at reducing the
problems associated with homelessness, and encampments
in particular, are valid exercises of this power.
The Ninth Circuit’s decision unjustifiably limits that
power. Under the decision, local jurisdictions like Los

16
Angeles and other cities in the Los Angeles area cannot
enforce public encampment laws unless there is shelter
available for all homeless people.
The cost of attempting to comply with the Ninth
Circuit’s standard is daunting. For example, currently, Los
Angeles City has enough beds for only 27% of its homeless
population. There are 27,000 homeless people remaining
on the street. Building shelters for all of those homeless
people would be exorbitantly expensive. In just the past
year, Los Angeles City spent more than $20 million to
build emergency temporary shelters under the Bridge
to Home program, but due to threats of litigation, efforts
to remove, regulate, or prohibit encampments nearby
have not been successful. https://laist.com/2019/06/03/a_
bridge_home_year_one.php.
These costs are exacerbated by ambiguities in the
Ninth Circuit opinion. For example, although stating
that jurisdictions must provide beds for “all” homeless
people, the opinions leaves ambiguous who is considered
to be homeless and what counts as appropriate shelter.
As a result, there is no clarity as to how much housing
a jurisdiction must build before it will be permitted to
regulate encampments to provide for the safety of both
homeless people and residents.
The Ninth Circuit’s opinion is also hopelessly vague
about who must bear those costs. Although requiring
the jurisdiction to provide beds for all their homeless,
the court did not define what constitutes the relevant
“jurisdiction.” This ambiguity will undoubtedly result
in efforts to pass off costs and responsibility to other
jurisdictions. Smaller cities in Los Angeles County will

17
likely disclaim an obligation to provide beds and pawn that
responsibility off on to the County and surrounding cities.
Indeed, for decades, the small city in which my brother
grew up has contended, falsely, that it has no homeless
people and no need for low-cost housing. Police pick up
homeless people and drop them across the border. The
Ninth Circuit decision will encourage such behavior.
In addition to the cost, building shelters to house
all of the homeless people in Los Angeles County would
take years. There are nearly 60,000 homeless people
in Los Angeles at any given time and over 100,000
during the course of the year. https://www.lahsa.org/
documents?id=3437-2019-greater-los-angeles-homelesscount-presentation.pdf. Thus, under the Ninth Circuit
decision, it would be years before Los Angeles could have
any hope of being permitted to enforce its laws to break
up encampments that pose a threat to health and safety.
The Ninth Circuit imposed limits on counting beds
in shelters that substantially increase these costs. 2 In
particular, it stated that beds in a shelter will not count
if the shelter limits the amount of time that a person
may stay. It also refused to count beds that permitted
individuals to stay only 17 consecutive days. See 920 F.3d
at 610 (“The “17-day . . . limits . . . functionally limit access
to [shelters] even when space is nominally available.”).
Likewise, the Ninth Circuit suggested that beds in
2. The Ninth Circuit raised these limitations only in
addressing Article III standing. See 920 F.3d 609-610. But it
implicitly considered them in concluding that Boise’s law violated
the Eighth Amendment by stating that the Eighth Amendment
prohibits the enforcement of Boise’s law “when no sleeping space
is practically available in any shelter.” Id. at 618.

18
shelters will not count if the shelter limits access to people
who leave the shelter after they have been allocated a
bed for a night, see id. (discounting beds in a shelter
that “turns individuals away if they voluntarily leave the
shelter before the 17-day limit”), or if individuals turned
away at other shelters cannot get to the shelter before
curfew, see id. (discounting beds in a shelter with a curfew
that occurred before another shelter assigned beds off the
wait list). The court also refused to count beds in a shelter
with a “religious component.” Id. at 609.
Thus, under the Ninth Circuit’s decision, it is not
enough for local government to provide beds for every
homeless person. Governments can enforce encampment
laws only if they provide all homeless people with
unlimited and unconditional access to beds in shelters of
certain types, with certain rules, and with no religious
characteristics. Among other adverse effects, the Ninth
Circuit’s decision discourages a host of creative efforts
to help people escape homelessness because it leaves
unclear (and doubtful) whether transitional housing
programs that include rules and conditions intended to
help their residents work toward permanent housing, or
to recover from addiction, “count” toward meeting the
Ninth Circuit’s requirement.
2. In sum, the Ninth Circuit’s decision not only erred in
its basic holding but also left unanswered critical questions
about the scope of its ruling.
• The Ninth Circuit stated that governments cannot
enforce anti-encampment laws “so long as there
is a greater number of homeless individuals in a
jurisdiction than the number of available beds in

19
shelters,” Martin v. City of Boise, 902 F.3d 1031,
1035 (9th Cir. 2018). As noted above, the court did
not define “jurisdiction.” Does “jurisdiction” mean
the area immediately around an encampment,
the locality that enforces the encampment law,
or the locality that enacted the encampment law?
These different approaches can have significant
ramifications for the number of beds that must
be available. For instance, it would dictate for
officials in Los Angeles City seeking to enforce
the encampment law whether there must be 1,000
or so beds available for the homeless in and around
a particular encampment; 36,000 beds available
for the homeless in Los Angeles City; or 60,000
beds available for all the homeless in Los Angeles
County.
• The Ninth Circuit decision also leaves ambiguous
whether the right to enforce the laws against public
camping depends on providing beds only for those
who are chronically homeless or also for people who
are temporarily homeless. Of the nearly 36,000
people who are homeless in in Los Angeles City on
any given day, around 26,000 are only temporarily
so. That number fluctuates daily. Some people may
be homeless for a single night because of personal
circumstances. Likewise, some homeless people
who ordinarily reside in Los Angeles County may
temporarily cross the border into the City. The
Ninth Circuit decision does not even hint whether
enforcement of laws depends on the availability of
beds for all of these people or only some particular
subset of them.

20
• The Ninth Circuit’s decision does not count beds in
shelters that have a “religious component,” without
defining the term. It provides only examples of what
constitutes a religious component, suggesting that
religious messages on the intake form and religious
iconography on the wall suffice. The decision thus
leaves unclear whether, for example, a shelter would
count if it were sponsored by a religious organization
but otherwise was indistinguishable from a secular
shelter, or if a volunteer wears a crucifix.
• In refusing to count beds in shelters that impose
time-limits on individuals stays, the Ninth Circuit
decision left unanswered whether shelters should
not be counted if they place other limits on intake,
such as curfews, sobriety requirements, or behavior
codes.
• Although it prohibited blanket enforcement of
encampment laws, the Ninth Circuit left unresolved
whether other laws, such as restrictions on
“particular times or [o]n particular locations” of
encampments, are constitutional. This ambiguity
leaves local gover nments w ith yet another
unanswered question about their ability to act.
These uncertainties invite endless litigation and increase
the cost of attempting to comply with the Ninth Circuit’s
erroneous decision.
3. The ambiguities in the Ninth Circuit’s decision
create sweeping uncertainty about the legality of
other policies aimed at addressing homelessness. This
uncertainty unduly hampers the ability of governments
to adopt creative and nimble solutions to homelessness.

21
For example, in 2018, Los Angeles City launched the
Bridge to Home program, designed to establish interim
emergency housing in neighborhoods with encampments.
https://www.lamayor.org/mayor-garcetti-la-city-councildeclare-shelter-crisis-mayor-signs-package-ordinancesaddress-la%E2%80%99s. To keep the area around these
sites safe, the program prohibits the erection of tents
on streets surrounding the shelters during daytime
hours. Communities often resist low-income housing or
temporary shelters being located in their neighborhoods.
This creative and promising program was well-designed to
encourage communities to accept shelter housing in their
neighborhood, with the inducement of being protected
from the ills of permanent encampments.
City officials have largely abandoned the program
because of threats of litigation contending that enforcement
of the restrictions on permanent tenting violate the Ninth
Circuit’s vague decision. It is an open question whether
the program would be upheld under the Ninth Circuit
decision. It is clear-cut, however, that the City would
incur substantial litigation expense and the other burdens
of litigation defending the program. The mere threat of
litigation was largely enough to derail the program.
Similar dynamics will inevitably interfere with
future efforts to establish shelters. Many people who
live near proposed shelters will demand restrictions on
camping to prevent an influx of homeless people into their
neighborhood, and members of the homeless community
will threaten litigation if the City acquiesces to those
demands. See https://w w w.nytimes.com/2019/05/22/
opinion/california-housing-nimby.html. Programs like
Bridge to Home seek to honor the legitimate concerns
of both groups, creating a “win-win” whereby homeless

22
people receive housing and hope to escape homelessness
and community members receive protection from
dangerous and unhealthy conditions in their neighborhood.
These kinds of programs are models that should be
encouraged. But most City officials will no doubt choose
to avoid navigating the Scylla of community resistance
to programs without restrictions on camping and the
Charybdis of litigation challenging programs with those
restrictions by not launching any new shelter programs
at all.
The uncertainty about how to count shelters that
restrict entry also threatens other targeted programs. For
example, the Winter Shelter program provides emergency
shelters for adults age 18 or over, https://www.lacity.org/
blog/lahsas-winter-shelter-program-reopens-for-thoseexperiencing-homelessness. It is unclear whether the
Ninth Circuit’s decision precludes counting beds in these
shelters because of the age restriction; that uncertainty
could make maintaining the Winter Shelter program less
attractive to Los Angeles officials. The same would hold
true for immediate housing targeted at women or families.
In short, the uncertainty surrounding the Ninth
Circuit’s ruling significantly limits the ability of Los
Angeles and other cities to pursue creative, nimble,
multi-pronged approaches to addressing homelessness
and encampment.
D.

The Ninth Circuit’s decision has other adverse
consequences.

In addition to unjustifiably handcuffing local
governments by limiting the tools for combatting the
problems associated with encampments, the Ninth

23
Circuit’s decision has other negative ramifications for
homeless people and local communities.
The inability to break up encampments will result
in the continuation of existing encampments and, as the
homeless population in Los Angeles continues to increase,
the development of new encampments. These encampments
will increasingly pose a risk of crime and disease to their
residents and to others. They will increasingly create fire
and other safety hazards. They will increasingly disrupt
the daily lives of those who live near the encampments or
travel through the encampments to work.
Ketchum-Downtown YMCA sees every day that the
urban center of Los Angeles can be a great place to live
and work: a place with culture, history, opportunity and
diversity. Members of the YMCA hail from all walks
of life, the organization strives to provide an inclusive
environment where everyone, including the homeless, may
find solace. But the YMCA community’s strength derives
from its ability to include and assist its most vulnerable
members and provide a healthy community space for all.
Encampments and the attendant health and safety risks
to both the homeless and surrounding communities,
considerably impede this goal.
Encampments also perpetuate homelessness. As
explained above, many homeless people prefer to stay
in encampments rather than in shelters or other, more
permanent, housing for a variety of reasons including fear
of losing the community of the encampments and of losing
access to controlled substances. Moreover, encampments
discourage their residents from finding a job or seeking
public assistance because of the threat that others in the
encampment will take any money, often through violence.

24
The Ninth Circuit’s decision inhibits governments
from adopting multi-pronged approaches to battling
homelessness. Under the decision, governments can
enforce encampment laws only if they devote what in
many cases would be enormous resources to constructing
shelters, resources far beyond those realistically available
in some jurisdictions. Because each government has only
limited resources, governments must choose between
building those shelters, or instead launching programs
aimed at constructing permanent housing, providing food
or medical services, or reducing safety hazards posed
by encampments. Requiring governments to make this
choice instead of permitting them to pursue all avenues
to address homelessness will inevitably harm homeless
people and others.
Further, the Ninth Circuit’s decision will inevitably
lead to more aggressive policing of the homeless.
Before the decision, government officials could disband
encampments by invoking Los Angeles County’s municipal
restriction on public camping to ask residents of the
encampments to disperse when those encampments
posed an unacceptable health or safety risk. The Ninth
Circuit’s decision bars that course of action. Officials will
likely turn to other laws—including state prohibitions
on public nudity, urination, or defecation—to break up
encampments that pose a significant threat to health and
safety. See Cal. Penal Code §§ 314 (indecent exposure),
372 (public nuisance) (West 2019).
The potential punishment for breaching these
laws is more significant than the penalty for violating
anti-encampment laws. Violation of Los Angeles antiencampment law is a misdemeanor, with a potential

25
punishment of a $1,000 fine and six months of imprisonment.
See L.A. Mun. Code § 11.00(m) (“Every violation of this
Code is punishable as a misdemeanor unless provision is
otherwise made, and shall be punishable by a fine of not
more than $1,000.00 or by imprisonment in the County
Jail for a period of not more than six months, or by both
a fine and imprisonment.”).
By contrast, although the first conviction for public
nudity, urination, or defecation is a misdemeanor, every
subsequent conviction is a felony, Cal. Penal Code § 314,
and requires the offender to register as a sex offender,
see id. § 290(c) (requiring registration of those convicted
for violating Cal. Pen Code § 314) (West 2019). These
consequences create virtually insurmountable obstacles
to escaping homelessness. Homeless people with felonies
on their record or who are required to register as a sex
offender will find it considerably more difficult to obtain
stable employment or find a landlord that is willing to
rent to them.
E. My personal experience with my brother
demonstrates that prohibiting enforcement of
anti-encampment laws can lead to homeless
people facing more serious criminal charges.
My personal experience demonstrates that prohibiting
enforcement of anti-encampment laws can result in
homeless people facing more serious criminal charges,
which make it substantially more difficult for them ever to
find suitable housing. My brother now has a felony record
and was required to register as a sex offender following
repeated arrests for public urination and one arrest for
masturbation.

26
My brother’s experience is not an outlier. I have heard
others express concerns about enforcement of these laws.
At a Town Hall held last May on the need for greater
access to mental health and shelters, several parents of
children who are currently homeless testified that their
greatest fear was that their child would be arrested for
public urination and classified as a Sex Offender. Their
fears are well founded. The inability to enforce the
encampment laws only increases the risk that their fears
are realized, as officials have fewer options to deal with
health and safety threats posed by encampments.
CONCLUSION
The Ninth Circuit’s decision cannot be reconciled with
the rationale of this Court’s decisions and conflicts with
decisions of other lower courts. That decision is having
an immediate and profound adverse impact on homeless
people and on local communities. The petition for a writ
of certiorari should be granted.

F. A ndrew Hessick
160 Ridge Road
Chapel Hill, NC 27599
(919) 962-4332
ahessick@email.unc.edu

Respectfully submitted,
Richard A. Simpson
Counsel of Record
Wiley Rein LLP
1776 K Street, N.W.
Washington, D.C. 20006
(202) 719-7000
rsimpson@wileyrein.com

Counsel for Amici

